J* )

(7/ ^ „ K '7
v- )y

i

<7 6

No/*il—

ORIGINAL

q>'

Supreme Court, U.S.
FILED

JUL 1 7 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

fJo/aoJ ’Zf/W&l

— PETITIONER

(Your Name)
vs.

fosnce,— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(h/rfeJ £4rlsr

0X Ao/P-eais

1b HkJ Circuit.

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

.

f PC
PO

lO*0__________

(Address)

Pa ItiSO
(City, State, Zip Code)

P/V(Phone Number)
<L t

’/nJsn 9, 2^?/

1
2
3
4
5
6
7
8

QUESTIONS PRESENTED FOR REVIEW
1. When prosecutors conspire with known conflicted defense counsel pre-indictment,
and devise a scheme to deprive two targets in a criminal investigation of their Constitutional
right to Due Process of Law and conflict free lawyers in a forthcoming criminal proceeding,
then execute the scheme arranging known conflicted lawyers to represent the diverging interests
of the two subjects while concealing the scheme and the conflicts from the subjects and the
District Court, then further the scheme committing fraud on multiple habeas Courts to cover up
their fraud on the Criminal Court in violation of 18 U.S.C. §§ 241, 242, does this conduct fall
outside the scope of the AEDPA for purposes of a Hazel Atlas claim of fraud on a habeas court
requiring the District Court to review the case on its merits IN THE FIRST INSTANCE as
found by the Tenth Circuit citing Gonzalez v Crosby, 545 U.S. 524, 528, 125, S. Ct. 2641, 162
L. Ed. 2d 480 (2005)?

9
10
11
12
13

2. Does the Government's failure to admit or deny allegations set forth in a true Rule 60
motion or petition in the nature of coram nobis, when ordered by the District Court to file a
reply as required by Rule 8, Federal Rules of Civil Procedure, constitute an admission by the
Government per Rules 8(b)(2) and 8(b)(6)? And can a District Court OR the Government, hide
behind the AEDPA to cover up a deprivation of Constitution rights that results in a gross
miscarriage ofjustice by executing fraud on multiple habeas courts to cover up fraud upon a
Criminal Court?

14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

l

1

PARTIES TO THE PROCEEDING

2

Petitioner Edward Zinner, pro se, respectfully petitions the United States Supreme Court

3

for writ of certiorari to review the judgment of the United States Court of Appeals for the Third
4
5

Circuit.

6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

li

1
2

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

-l-

PARTIES TO THE PROCEEDING

-li-

TABLE OF CONTENTS

-m-

6

TABLE OF AUTHORITIES

-IV- -V- -VI

7

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTION AND STATUTORY PROVISIONS INVOLVED

1-2

12

STATEMENT OF THE CASE

3-20

13

Requirements for Writ of Error Coram Nobis

20-23

REASONS FOR GRANTING THE WRIT

24-31

The Petition for Writ of Error Coram Nobis

31-34

CONCLUSION

34

3
4
5

8
9
10
11

14
15
16
17
18
19
20
21

INDEX TO APPENDICES
APPENDICE A - Court of Appeals Summary Denial of Appeal from District Court,
Dated July 2021
APPENDICE B - Decision of the District Court Published at 2020 U.S. Dist.
LEXIS 169108 (2020)

22
23

APPENDICE C - District Court Decision Published at U.S. Dist. LEXIS 1393 (1998)

24

APPENDICE D - District Court Decision, Unpublished, Rule 60(d)(3) Denial (2019)

25

APPENDICE E - Government Motion to Disqualify Defense Counsel/Plea
Agreement "Package"

26
27

APPENDICE F - District Court Docket Record - Eastern District of Pennsylvania

28

in

1
2

TABLE OF AUTHORITIES - SUPREME COURT CASES CITED

3

Ayestas v Davis, Dir. TEX. CRIM. Dept, of Crim. Justice,
200 L. Ed. 2d 376
US
............................................ .

1

4

Bolling v Sharpe, 347 U.S. 497, 499-500 (1954)

2

5

Cuyler v Sullivan, 466 U.S. 335, 349-50,100 S. Ct. 1708, 64 L. Ed. 2d 333 (1980)

29

Davis v Packard, (US) 8 Pet 312, 8 L. ed 957

32

Gonzalez v Crosby, 545 U.S. 524, 528,125, S. Ct. 2641,162 L. Ed. 2d 480 (2005)

2

Gravel v United States, 408 U.S. 606, 627, 33 L. Ed. 2d 583, 92 S. Ct. 2614 (1972)

24

Hazel-Atlas Glass v Hartford-Empire Co., 322 U.S. 238, 248, 64 S. Ct. 997,
88 L. Ed. 2d 1250 (1944)................................................................................

5

6
7
8
9
10
11
12

Heck v Humphrey, 512 U.S. 477, 486-487, 114S.Ct. 2364, 129 L. Ed. 2d 583 (1994) — 22

13

Hohnv United States, 524 U.S. 236, 141 L. Ed. 242,118S.Ct. 1969(1998)

1

14

Holloway v Arkansas, 435 U.S. 475, 98 S. Ct. 1173, 55 L. Ed. 2d 426 (1978)

13,29

Imbler v Pachtman, 424 U.S. 409, 421, 96 S. Ct. 984, 47 L. Ed. 2d 128 (1976)

24, 30

Mickens v Taylor, 535 U.S. 167,175, 122 S. Ct 1237,152 L. Ed. 2d 291 (2002)

19

18

O'Shea v Littleton, 414 U.S. 488, 503, 38 L. Ed. 2d 674, 94 S. Ct. 669 (1974)

24

19

Olmstead v United States, 277 U.S. 438, 485, 72 L. Ed. 944, 48 S. Ct. 566 (1928)

14

Picket v Legerwood, (US) Pet 144, 147, 8 L. ed 638, 639

32

Strickland v Washington, 466 U.S. 668,104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984)

18, 19

Wood v Georgia, 450 U.S. 261, 273, 101 S. Ct. 1097, 67 L. Ed. 2d 220 (1981)

13

24

United States v Cronic, 466 U.S. 648, 649,104 S. Ct. 2039, 8 L. Ed. 2d 657 (1984)

19

25

United States v Denedo, 556 U.S. 904, 910-11,129 S. Ct. 2213,
173 L. Ed. 2d 1235 (2009)...........................................................

32

27

United States v Morgan, 346 U.S. 502, 74 S. Ct. 247, 98 L. Ed. 2d 248 (1954)

25

28

United States v Smith, 331 U.S. 469-477, 91 L. Ed. 1610 (1947)

31

15

16
17

20
21
22
23

26

iv

1
2

Weaver v Massachusetts, 532 U.S.__, 137S.Ct. 1899, 198 L. Ed. 2d 657 (2017)

19

TABLE OF AUTHORITIES - FEDERAL COURT CASES CITED

3

Alarcom Pay Television, LTD, 2000 U.S. App. LEXIS 172,
No. 98-56298 (Jan. 4, 2000)---------------------------------------

5

Chester v Comm'r of Pa. Dept, of Corr, 598 Fed. Appx. 94 (Jan 13, 2015)

29

In re, Pickard, 661 F.3d 1201, 1215-16 (10th Cir. 2006)

passim

Manholt v Reed, 847 F.2d 576, 582 (9th Cir. 1991)

16

Ragbir v United States, 950 F.3d 54 (3rd Cir. 2019)

31

10

Strouse v Leonardo, 928 F.2d 555 (2nd Cir. 1991)

13,30

11

U.S. v Haziz Self, 2009 U.S. Dist. LEXIS 121386

18

U.S. v Miller, 624 F.2d 1198

19

U.S. v Moscony, 697 F. Supp. 888 (E.D.PA. 1988 (Reed, J.))

30

15

U.S. v Provenzano, 620 F.2d 985, 1005 (3rd Cir. 1980)

30

16

U.S. v Wheat, 813 F.2d 1399 (9th Cir. 1986)

29

United States v Aiello, 814 F.2d 109, 113 (2nd Cir. 1987)

13

United States v Dolan, 570 F.2d 1177, 1180-81 (3rd Cir. 1978)

19,30

United States v Laura, 667 F.2d 365, 371 (3rd Cir. 1981)

19

21

United States v Levy, 25 F.3d 146,152 (2nd Cir. 1994)

29

22

United States v Pungitore, 910 F.2d 1084,1140 (3rd Cir. 1980)

18

United States v Baptiste, 224 F.3d 188, 189 (3rd Cir. 1989)

32

United States v Swartz, 975 F.2d 1042 (4th Cir. 1992)

passim

United States v Stoneman, 870 F.2d 105-106 (3rd Cir. 1989)

32

27

United States v Nicholson, 475 F.3d 241, 248 (4th Cir. 2007)

16

28

United States v Zinner, 2020 U.S. Dist. LEXIS 169108, Sept. 16, 2020

1

4
5
6
7
8
9

12
13
14

17
18
19
20

23
24
25
26

V

1
2
3

United States v Zinner, 608 Fed. Appx. 167, 2015 U.S. App. LEXIS 11466,
July 2, 2015....................................................................................................

1

United States v Zinner, Civ. No. 4:19-cv-32

1

4
5

TABLE OF AUTHORITIES - STATUES CITED
18U.S.C. §2

22

18U.S.C. §241

passim

18U.S.C. §242

passim

9

18U.S.C. § 1622

2, 22

10

28 U.S.C. § 1254

1

28 U.S.C. § 2244 Anti-Terrorism & Effective Death Penalty Act

passim

28 U.S.C. § 2255

passim

6
7
S

11
12
13

FEDERAL RULES OF CRIMINAL PROCEDURE

14
15

RULE 11

passim

16

RULE 44

passim

17

FEDERAL RULES OF CIVIL PROCEDURE

18

RULE 8

passim

RULE 60

passim

19
20

RULES OF PROFESSIONAL CONDUCT

21
22

29

RULE 1.7(a)(b)

23

UNITED STATES CONSTITUTION

24

5TH AMENDMENT

1,25

6TH AMENDMENT

passim

14TH AMENDMENT

1,25

25
26
27
28

vi

1
2

PETITION FOR WRIT OF CERTIORARI

3

a) Edward Zinner, pro se, respectfully petitions for a writ of certiorari to review
the judgment of the United States Court of Appeals for the Third Circuit.

4

OPINIONS BELOW

5
6
7
8
9
10
11

b) The decision of the Court of Appeals is not published; however, a copy of
the opinion is attached as Appendice - A.
c) The decision of the District Court is published at 2020 U.S. Dist. LEXIS
169108, Sept. 16, 2020. (Error Coram Nobis-Denial) a copy of the opinion is attached at
Appendice - B
OTHER RELEVANT OPINIONS
d) Another relevant decision of the District Court can be seen at 1998 U.S.
Dist. LEXIS 1393, Feb. 6, 1998. A copy is attached as Appendice - C. (Rule 60(b) Motion—
DENIED)(1998)

12
13
14
15

e) Another relevant decision of the District Court is unpublished, but a copy of
the decision is attached as Appendice - D. (Rule 60(d)(3) Motion —DENIED)(2019)
f) Another relevant decision of the District Court for the Eastern District of
Virginia is published at 2014 U.S. Dist. LEXIS 184266 and an unpublished opinion at 608
Fed. Appx. 167, 2015 U.S. App. LEXIS 11466 July 2, 2015.

16
17

g) Another relevant case is pending in the United States District Court for the
Eastern District of Virginia which can be seen at Pacer, Civ. No. 4:19-cv-32.

18

JURISDICTIONAL STATEMENT
19
20
21
22
23
24
25
26
27
28

h) This Court has jurisdiction pursuant to 28 U.S.C. § 1254 which gives the
United States Supreme Court jurisdiction to review cases in the Court of Appeals. 200 L. Ed.
2d 376__US__Ayestas v Davis, Dir. TEX DEPT, of CRIM. JUSTICE. The Supreme Court
may review denial of a certificate of appealability (COA) by lower courts. Hohn v United
States, 524 U.S. 236, 141 L. Ed. 2d 242,118 S. Ct. 1969 (1998).
RELEVANT CONSTITUTIONAL, STATUTORY AND SUPREME COURT
AUTHORITIES
i) The issues before the Court involve the United States Constitution and its
5th, 6th, and 14th Amendments with respect to the intentional deprivation of those rights under
color of law by federal prosecutors who acting in concert with defense lawyers, committed
felony fraud upon the District Court to carry out a scheme intended to deprive Petitioner of
those rights. This case also encompasses the Tenth Circuit's holdings in In re, Pickard, 661
F.3d 1201, 1215-16 (10th Cir. 2006) in which the Court conducted an in-depth analysis of this

-1 -

1
2
3

Court's holdings in Gonzalez v Crosby finding that the Government may not commit fraud on
a habeas court, then hide behind the AEDPA just because it similarly deceived the trial court.
The Third Circuit has not directly addressed the issue as stated by Judge Padova in his 2019
opinion attached. Fraud on the Court exists in this case as that term is defined at law by this
Court and every other Circuit that has addressed the issue.

4
5
6
7
8
9
10
11
12
13
14
15
16
17

CONSTITUTIONAL PROVISIONS
j) The Equal Protection Clause of the Fourteenth Amendment states in relevant
part: [N]or shall any state deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws.
k) The Due Process Clause of the Fifth Amendment provides in relevant part:
No person shall be...deprived of life, liberty, or property, without due process of law.
1) The Equal Protection Clause applies to the Government through the Fifth
Amendment's Due Process Clause, Bolling v Sharpe, 347 U.S. 497, 499-500 (1954).
m) The Assistance of Counsel Clause of the Sixth Amendment states in
relevant part: In all criminal prosecutions, the accused shall enjoy the right...to have the
Assistance of Counsel for his defense.
STATUTORY PROVISIONS RELATING TO THE DEPRIVATION OF
CONSTITUTIONAL RIGHTS
n) The federal crime of suborning perjury is statutorily defined: "Whoever
procures another to commit any perjury is guilty of subornation of perjury and shall be fined
under this title or imprisoned not more than five years or both." 18 U.S.C. § 1622.

18
19
20
21

o) The federal crime of depriving a citizen of a Constitutional right is
statutorily defined. Section 241 provides that: If two or more persons conspire to injure,
oppress, threaten, or intimidate any person in any State, Territory, Commonwealth,
Possession, or District in the free exercise or enjoyment of any right or privilege secured to
him by the Constitution or the laws of the United States, or because of having exercised the
same...shall be fined under this title or imprisoned not more than ten years, or both...

22
23
24
25
26

p) Section 242 provides that: Whoever, under color of law, statute, ordinance,
regulation, or custom, willfully subjects any person in any State, Territory, Commonwealth,
Possession, or District to the deprivation of any rights, privileges, or immunities secured or
protected by the Constitution or the laws of the United States, or to different punishments,
pains, or penalties...shall be fined under this title or imprisoned not more than one year or
both...

27
28

-2-

1
2

STATEMENT OF THE CASE
1. This Petition arises from the United States Court of Appeals for the Third Circuit's

3

summary denial of Petitioner's Appeal from the District Court's denial of his Petition for writ of
4
5

error coram nobis. The underlying case involves a conspiracy to deprive Petitioner of

6

Constitutional rights including his right to a conflict free lawyer in a criminal trial and his right

7

to due process in habeas proceedings. The scheme was carried out by officers of the Court

S

criminally obstructing the judicial process which deceived the District and Appellate Courts,

9

thereby depriving Petitioner of his said rights in violation of 18 U.S.C. §§ 241, 242. The request
10
11

for writ of error coram nobis was an effort of last resort in an attempt to obtain relief from

12

decades of legal and financial devastation that followed the unlawful and unconstitutional 1995

13

conviction including ongoing consequences that continue as of this writing. The Government

14

has never admitted or denied its criminal conduct when filing COURT ORDERED responses to

15

multiple habeas Petitions in violation of Rule 8, Fed. R. Civ. P., thus the merits of multiple
16
17

habeas pleadings and new evidence, discovered in 1999, proving the Government's conspiracy

18

to employ conflicted defense lawyers in a criminal scheme to deprive Petitioner of

19

Constitutional rights, have never been adjudicated. Consequently, neither the District Court nor

20

the Court of Appeals have ever addressed the merits of the case, i.e., the denial of a conflict free

21

lawyer in the criminal matter and prosecutors have effectively covered up their felony
22
23

deprivation of Petitioner's Constitutional rights via fraud on the District Court in habeas

24

proceedings, thereby thwarting Appellate Courts from addressing the merits hiding behind the

25

AEDPA to do so. Thus, the Constitutional deprivations from which Petitioner has suffered since

26

1995 through this writing, remain unaddressed. Simply put, the Government executed frauds on

27

multiple habeas courts as that term is defined at law where Petitioner was seeking relief via §
28

-3-

1
2

2255 and true Rule 60 motions; and, the Government, through its fraud on those courts, covered
up a parallel fraud on the criminal court in the underlying matter, thereby, creating

3

insurmountable procedural hurdles for Petitioner that have precluded his obtaining relief to
4
5
6
7
8

which he has been entitled since 1995. Petitioner has no adequate remedy at law.
2. Petitioner’s attempts to have the merits of the case including key evidence concealed
by the government reviewed by habeas and/or Courts of Appeals, have been quashed by inter
alia the Government continuously filing pleadings void of response to the allegations and

9

evidence at issue, i.e., AUSA Foa's Disqualification Motion/Plea Agreement "package.'' The
10
11

Government sought and obtained judicial relief from their obligation to respond to the appeal

12

now before this Court. This was by design so that no record would exist relevant to fraud on the

13

court and attorney conflict allegations both of which formed the factual predicate for all the

14

underlying habeas proceedings. Should this Court grant a Writ of Certiorari, the Government

15

will for the first time have to answer for its criminal conduct. The Government committed fraud
16
17

on the habeas Courts by executing a criminal scheme to commit and suborn peijury during Rule

18

60(b) evidentiary hearings while continuing to conceal key evidence that was also concealed

19

from the Criminal Court, i.e., Foa's illegal "Package" which cannot exist at law because it is an

20

oxymoron at law. Without question, a plea agreement for a co-defendant that requires his

21

testimony against Petitioner, cannot be attached to a motion to disqualify Petitioner's former
22
23

counsel from representing the co-defendant for unwaivable conflicts of interest with Petitioner,

24

thus the Government cannot frame any legal basis for such a "package" to even exist, let alone a

25

legal justification to support its contents. The documents are diametrically opposed to the

26

Constitution’s Amendments V, VI, XIV and federal law, thus cannot exist at law. When

27

Petitioner raised the same conflicts of interest the Government set forth in its own motion to
28

-4-

1
2

disqualify Sidney Freidler from representing Mark Waldron Jr., during Rule 60(b) evidentiary
hearings, the Government, instead of disclosing its hidden "package” and admitting there were

3

in fact, "unwaivable" conflicts AND a secret deal with defense counsel to conceal the conflicts,
4
5

deceived the Court falsely claiming that "Petitioner made it all up because he doesn't like his

6

sentence" and that "it’s a figment of Mr. Zinner's imagination," (Hr. Tr. Nov/Dec 1997) despite

7

the fact that the Government AND defense counsel were unquestionably in possession of

8

AUSA Foa's "package" which proves beyond any doubt, that Petitioner's attorney conflict and

9

fraud on the court allegations were truthful, factual and correct. Consequently, the habeas Court
10
11

was deceived by the perjury, suborning of perjury and concealing of key evidence (Foa's

12

"Package) and that constitutes fraud on the Court within the meaning of the law (See Gonzalez

13

v Crosby, 545 U.S. 524, 528, 125, S. Ct. 2641, 162 L. Ed. 2d 480 (2005). While suborning of

14

peijury by an officer of the Court is always fraud on the court, courts have also held where

15

perjury hides a material fact or key piece of evidence intended to deceive the court, does
16
17

constitute fraud on the court. See Alarcom Pay Television, LTD, 2000 U.S. App. LEXIS 172

18

No. 98-56298 (Jan. 4, 2000). The Government and defense counsel suborned perjury of one

19

another in evidentiary hearings held on a true Rule 60 motion while concealing the very key

20

evidence it concealed from the trial court, evidence that would have proved the use of conflicted

21

counsel to extract guilty pleas from their clients as alleged in the § 2255 proceedings. The
22
23

perjury scheme was by design to deceive the habeas court to believe that no conflicts existed

24

and to cover up the deprivation of Constitutional rights inflicted upon the Petitioner through

25

deception of the Criminal Court in the underlying matter. This certainly impinged upon the

26

Court's ability to function in its normal capacity of adjudicating cases fairly which constitutes

27

fraud on the Court as defined by this Court in Hazel-Atlas Glass Co. v Hartford-Empire Co.,
28

-5-

1
2

322 U.S. 238, 248, 64 S. Ct. 997, 88 L. Ed. 1250 (1944). In Hazel Atlas, an attorney
fraudulently obtained a patent and submitted it to the Court. This case is far worse in that the

3

Government deceived the Court into permitting conflicted lawyers to represent criminal
4
5

defendants with adverse interests and concealed the conflicts and key evidence from the Court

6

that if disclosed, would have caused the Court to protect the Constitutional rights of the

7

defendants as required by Rule 44 F.R.Crim.P., and the 6th Amendment. Foa's "package"

8

provides clear proof that the Government and defense counsel intended to and did in fact,

9

deprive the defendants of Constitutional rights. The Government's concealed "package" begins
10
11
12

with a fax as follows:
Fax Cover Sheet: To: Sidney Freidler, FROM: Pamela Foa: 25
pages to follow-3/6/95: Contents:

13
14
15

This Package will come through in 2 faxes. 1 st fax will be
Motion/Exhibit "A." 2nd fax will be plea agreement. Both faxes
total 25 pages. If you do not receive all pages, please call Kelly @
215-451 -5431. Thank you. (See Appendice-E)

16
17

This information is telling. The fax was sent on March 6,1995, the Rule 11 hearing was March

18

10, 1995. Foa's Motion clearly seeks disqualification of Petitioner's former counsel, Sidney

19

Freidler from representing Mark Waldron Jr., due to "unwaivable" conflicts of interest with

20

Petitioner. Freidler was fired by Petitioner after representing Petitioner, his wife and mother in

21

this case and related matters. As well, Freidler was "joint" counsel to Petitioner and Waldron in
22
23

this case since the summer of 1994. These obvious conflicts are pointed out in Foa's Motion to

24

disqualify Freidler. Waldron's plea agreement attached to Foa's disqualification motion as a

25

"package" cannot exist at law because the contents of the "package" proves the conflicts that

26

prevent Freidler from negotiating or executing the pre-drafted plea agreement included in the

27

“package.” How can Petitioner's former counsel, Freidler, "negotiate" a plea agreement for
28

-6-

1
2

Waldron while the plea agreement is already in his possession via fax from FOA. and in the
face of Foa's disqualification motion also in Freidler’s possession that precludes representation

3

of Waldron by Freidler due to unwaivable conflicts of interest with Petitioner? And, when the
4
5

PRE-DRAFTED plea agreement requires Waldron to testify against Freidler's former client,

6

Petitioner? And how can Petitioner's then "exclusive" counsel (“exclusive” according to Foa in

7

her motion, and Mezzaroba to Judge Padova in December 1994) now assist Freidler on March

8

7, 1995, (who is legally disqualified) with extracting a guilty plea ffom Waldron, (Mezzaroba's

9

former client) when his now "exclusive" client, (Petitioner) is expected to testify against
10
11

Waldron, Mezzaroba's former client at trial according to Foa? Equally despicable, how could

12

Foa then file a motion to have Freidler admitted pro hoc vici to represent Waldron after having

13

caused this felony deprivation of Petitioner and Waldron's 6th Amendment rights during pre-

14

indictment plea negotiations? And worse, how could Judge Padova approve it? This absurdity

15

defines corruption and shows that it exists at the highest levels of our justice system which
16
17

cannot be permitted to stand in a civilized society. The concealing of Foa's "package" by all

18

counsel proves the secret deal between them all to hide the conflicts and the "package" from

19

their clients, former clients and the Court which is fraud on the Court as defined at law. The

20

Government AND defense counsel were obligated to disclose this conflict to the defendants and

21

the COURT at once and intentionally failed to do so. (citations infra) Instead, both counsel
22
23

extracted Petitioner and Waldron's guilty pleas and delivered them to prosecutors in time for the

24

Rule 11 hearing, thus intent to commit fraud on the Court and intentional deprivation of conflict

25

free lawyers in a criminal trial, a felony, is clearly proved by the documents concealed and the

26

existing record.

27
28

-7-

1
2

3. Instead of disclosing the conflicts to the Criminal Court in the presence of the
defendants as required to comply with the 6th Amendment and Rule 44(c) Federal Rules of

3

Criminal Procedure, prosecutors secretly conspired with the conflicted defense lawyers to
4
5

conceal the conflicts and Foa's "package" while coercing pre-indictment guilty pleas from their

6

clients and former clients prior to the Rule 11 hearing, then all counsel concealed the conflicts

7

and the "package" from their clients and the Court at the Rule 11 hearing. The Government

8

further facilitated the conflicted representation when AUSA Foa acted as supervising attorney

9

for the pro hoc vici admission of Freidler, for the express purpose of representing Waldron,
10
11

AND Judge Padova KNEW that Freidler was Petitioner's former counsel as Foa points out in

12

the Government's concealed disqualification motion. Moreover, not only does the Government's

13

concealed "package" disclose two hearings held before Judge Padova in December 1994, where

14

the government claims it learned for the FIRST time that Freidler was THEN representing

15

Waldron "exclusively" and Mezzaroba was representing Petitioner "exclusively" after
16
17

representing Petitioner and Waldron "jointly," proved by Foa's statement that the government

18

learned of separate representation as set forth in the motion. However, testimony of record

19

proves that upon Freidler's receipt of Foa's "package" on March 6,1995, one day later, BOTH

20

defense counsel met with co-defendant Waldron and extracted his guilty plea for prosecutors

21

which was presented to the Court on March 10, 1995, as was Petitioner's plea thereby
22
23

completing that objective of the conspiracy. Judge Padova clearly knew of the conflicts in

24

December 1994. Once Freidler and Waldron executed Foa’s pre-drafted guilty plea agreement,

25

(Part 2 of Foa's concealed "package,") Foa buried Part 1, her own motion to disqualify Freidler.

26

Foa then filed a motion to admit Freidler, who was licensed in New York and Florida, to

27

practice in the Pennsylvania District Court pro hoc vici for the purpose of representing
28

-8-

1
2

Waldron. This was fraud on the Court because ALL counsel knew of the conflicts that
prohibited Freidler from representing Waldron not to mention Freidler was under criminal

3

investigation. Had Foa disclosed her illegal "package" on the record of the Rule 11 hearing as
4
5

required or had defense counsel disclosed any of those facts to the Court as required, the result

6

would have been disqualification of BOTH Freidler and Mezzaroba for unwaivable conflicts of

7

interest. ANY legitimate Court or advocate acting in the interest of his client would have

8

complied with the requirements of the 6th Amendment and discussed the conflicts in open

9

Court with the defendants present so as to protect the 6th Amendment rights of the defendants
10
11

as is done in every other case where such conflicts exist. But Foa concealed her illegal

12

"package" and the conflicts of interest from the Court and its records as did BOTH defense

13

counsel, now acting as agents for the Government committing felonies! For these reasons, all 5

14

requirements for Writ of Error Coram Nobis were met.

15

4. Had the Government or defense counsel disclosed the conflicts and Foa's "package" in
16
17

open Court, the Court would likely have enforced the law due to the nature of the documents

18

and because the “package” would then be a part of the record thereby making it near impossible

19

for Judge Padova to author the outrageous opinions now before this Court in

20

1996/1998/2019/2020. Foa's motion continues:

21
22
23
24

1. "The United States of America, by its counsel, Michael R. Stiles,
United States Attorney for the Eastern District of Pennsylvania, and
Ronald H. Levine, Pamela Foa and Seth Weber, Assistant United
States Attorneys, moves the Court to disqualify Sidney Freidler, Esq.,
from further representation of Mark Waldron because of an
unwaivable conflict of interest. The United States represents that:

25
26
27
28

2. On January 24, 1995, a federal grand jury indicted four men,
including Mark Waldron and Edward Zinner. Both Waldron and
Zinner were indicted on charges of racketeering and wire fraud. In the
course of the investigation, defendant's wife and mother were
subpoenaed to testify before the grand jury. They were represented by,

-9-

1
2

and present with them at the grand jury, were Sidney Freidler, Esq., of
Long Island New York and his co-counsel. Albert Mezzaroba. Jr., of
Philadelphia. (Id. at pg. 2, App'x-E).

3

The Government's facts here are correct and require no further explanation as to the law with
4
5

respect to conflicted counsel negotiating plea agreements for two clients and former clients that

6

require both to testify against each other, one going to prison, the other house arrest, one

7

ordered to pay almost $500,000 in restitution, the other $7,000. Aside from that farce, the

8

Government needed Waldron for show because there was no crime and Waldron was the trustee

9

of the ERISA plan, hence the reason for the guilty plea scam and use of both defense counsel to
10
11

obtain BOTH unlawful guilty pleas. Worse, BOTH counsel were facing forfeiture of $210,000

12

upon conviction of EITHER CLIENT/FORMER CLIENT by guilty plea of a RICO violation.

13

This too was an actual conflict of interest affecting both defense counsel (citations infra).

14

Nonetheless, Foa permitted both counsel to retain the fees even though Petitioner and Waldron

15

were convicted by guilty plea of stealing the money from the named RICO Enterprise while Foa
16
17

claimed the fees were proceeds of the offense for purposes of restitution and a pre-indictment

18

seizure of Petitioner’s assets. At the Rule 11 and sentencing hearings, Petitioner was

19

represented by Mezzaroba, Waldron's former counsel who just assisted Freidler with extracting

20

Waldron's guilty plea, after Freidler was fired by Petitioner and conflicted out of the case

21

according to the GOVERNMENT. More absurd, Waldron's guilty plea required his testimony
22
23

against Petitioner, (both counsel's client and/or former client), while Petitioner’s plea agreement

24

required his testimony against Waldron, Petitioner also both counsels client and/or former client

25

and none of this can exist at law. (Petitioner fired Freidler in late 1994 for a poor performance

26

in the Resource Bank matter referenced in Foa's "package" which was part of the Government's

27

case to be presented at trial according to Foa) NOTABLY, Mezzaroba's participation in the
28

-10-

1
2

extraction of Waldron's guilty plea was done on March 7,1995, after Mezzaroba told Judge
Padova in December 1994, that he was representing Petitioner "exclusively" as pointed out in

3

Foa's motion to disqualify Freidler. Petitioner did not know any of this in 1994 and did not
4
5

discover Foa's concealed and secreted "package" until mid 1999 after conclusion of the case,

6

thus could not prove these facts at what Judge Padova touts as a "full" evidentiary hearing when

7

denying relief to which he knows Petitioner is entitled. Mezzaroba then lied about these facts at

8

the Rule 60(b) evidentiary hearing falsely claiming, "it was not decided who was representing

9

who right up until after the indictment (January 24, 1995) but before the Rule 11 hearing"
10
11

(March 10, 1995) and Weber and Foa suborned Mezzaroba’s perjury. Judge Padova cited the

12

perjury verbatim in his 1998 opinion denying relief which is clear proof of the conspiracy as no

13

legitimate defense lawyer would commit perjury for any reason nor would any legitimate

14

prosecutor suborn perjury for any reason. And more troubling, Judge Padova knew the truth of

15

all of it since December 1994 and not only did nothing, but went along with the scam, but
16
17
18
19
20
21
22
23

quoted what he knew was perjury in his 1998 opinion and has regurgitated that opinion in later
opinions issued post 1998:
"Defendant contended that Mezzaroba was trying to persuade
Mark Waldron Sr., that his son should plead guilty as part of a
corrupt deal he has with prosecutors, but Mezzaroba explained that
he considered a guilty plea in Waldron's best interests. He said that
he was advising Waldron as well as Defendant because at that
time, it was not determined exactly which attorney would represent
which client. (Hr. Tr. of 2/30/97 at 53-55)(J. Padova Op. at
Appendice B, pg.'s 9-10).

24

Judge Padova KNOWS this "testimony " is a lie because the issues were discussed before him
25
26

as pointed out in Foa's motion. Further, Mezzaroba told Judge Padova that as of December

27

1994, he was representing Petitioner "exclusively." Freidler was FIRED by Petitioner in late

28

1994, thus had no business in the case due to conflicts of interest as pointed out in Foa's

-11 -

1
2

concealed disqualification motion/plea agreement "package." This is simply outrageous, fraud
on the Court now implicating a federal judge. Even more egregious, when presented with Foa's

3

"package" in 1999, Judge Padova ignored it and refused to even address it, denying habeas
4
5

motions absent a hearing and absent a response from the government that explained the

6

concealed "package" or the conflicts of interest let alone the intentional deprivation of Petitioner

7

and Waldron's Constitutional rights. These facts demonstrate a clear criminal obstruction of the

8

judicial process, by officers of the Court, the fraud directed at the Court, by which, the Court

9

was deceived in a way that impinged on its ability to conduct a criminal trial and/or make
10
11

decisions in habeas proceedings based upon facts. It is difficult to imagine more egregious

12

conduct that could possibly run further afoul of the law or the Constitution than what occurred

13

here.

14

5. It is irrefutable that Foa buried the disqualification motion as did defense counsel and

15

both concealed the conflicts from the Rule 11 and sentencing courts in 1995; then LIED to the §
16
17

2255 court by omission in 1996, lied to the Rule 60(b) Court in 1997 as demonstrated herein to

18

cover up fraud on the § 2255 and Criminal Courts, then failed to address the "package" in 1999

19

when answering a Rule 60(b) motion per Court Order; motion for new trial and motion to

20

appoint special counsel to investigate fraud on the court, (the Court failing to even address the

21

"newly discovered" evidence at that time") and then they all hid behind the AEDPA deflecting
22
23

the truth from being introduced into the record. The Court and the Government misrepresented

24

the Court's docket record in 2019 to hide the fact of the 1999 motions having been filed so as to

25

create the false impression that the "package" was new evidence discovered in 2019, not 1999,

26

thereby creating a quasi-path to misrepresent the evidence and shift the claim to a § 2255 claim

27

instead of a fraud on the court claim as alleged in the true Rule 60(d)(3) motion (2019). This
28

-12-

1
2

was done to deceive the Court of Appeals into issuing a summary denial of the Appeal. Foa's
Motion continues:

3
4
5

’’Thereafter, in response to a grand jury subpoena for documents,
Sidney Freidler, Esq., orchestrated production of those documents
and the delivery....all the documents were housed in the same
office suite and were, in fact, under the control of Edward Zinner."

6
7
8
9
10
11

"In December 1994, in response to further subpoena of the United
States, the Government learned for the first time that Sidney
Freidler was representing exclusively American Fidelity Trust and
Mark Waldron, its trustee, and that A1 Mezzaroba was representing
exclusively, National Insurance Consultants, Inc., and its President,
Edward Zinner. Those representations were reaffirmed at the
Court's hearing on NIC's and American's motion to quash on
December 23, 1994." (Id. at pg. 3).

12

This provides clear proof of discussions before Judge Padova with respect to who was

13

representing who as of December 1994, rendering his "opinion" above in 1998, a complete

14

fabrication and he only got away with it because Petitioner did not know of the existence of

15

Foa’s disqualification/plea agreement “package” until mid 1999 after conclusion of the case:
16
17
18
19
20
21
22
23

"When a District Court is sufficiently apprised of even the possibility
of a conflict of interest, the Court first has an inquiry obligation. See
Wood, 450 U.S. at 272-73, 446 U.S. 347; Holloway, 435 U.S. at
484. The Court must investigate the facts and details of the attorney's
actual conflict, a potential conflict or no genuine conflict at all. See
Strouse v Leonardo, 928 F.2d 555 (2nd Cir. 1991)("In order to
protect a defendant's right to conflict free counsel, the trial court
must initiate an inquiry when it knows or reasonably should have
known of the possibility of a conflict of interest." See also United
States v Aiello, 814F.2d 109, 113 (2nd Cir. 1987)("Sixth
Amendment imposes duty upon a trial court to inquire.").

24

As the record demonstrates, there was no inquiry by the Court, no waiver from the defendants

25

and no disclosure by the Government OR defense counsel and there can be no question now that

26

everyone but the defendants knew of the conflicts and that the sham representation was

27
28

-13-

1
2

orchestrated by the Government, carried out by all counsel in the case and with full approval of
the Judge.

3

6. This unlawful conduct runs so far afoul of the law and the Constitution that it wreaks
4
5

not only the stench of corruption but stands as an affront to the integrity of the District Court,

6

The United States Court of Appeals and the entire Federal Justice system. A very wise Supreme

7

Court Justice once addressed this stating:

8
9
10
11
12
13
14

"In a government of laws, existence of the government will be
imperiled if it fails to observe the law scrupulously...If the
Government becomes the lawbreaker, it breeds contempt for the
law. It invites every man to become a law unto himself. It invites
anarchy. To declare that the Government may commit crimes to
secure a conviction of a private criminal, would bring terrible
retribution...against that pernicious doctrine (the ends justifies the
means) this Court should resolutely set its face." Justice Louis
Brandeis, cf Olmstead v United States, 277 U.S. 438, 485, 72 L.
ed. 944, 48 S. Ct. 566, 66 ALR 376 (1928)(emphasis added).

15

The questions presented to this Honorable Court, if unanswered, will allow federal prosecutors

16

to continue this type of fraud on Courts to deprive citizens of Constitutional rights under the

17

guise of legitimate prosecutions. This case is of national importance because it involves an

18

atrocity that can happen to any person of a prosecutor’s choosing while the prosecutor is literally
19
20

accountable to no one! Further, this case involves the interpretation and application of

21

Constitutional law that the Third Circuit refused to address. It is crucial that this court set a new

22

precedent, otherwise prosecutors get a green light to obliterate the Constitutional rights of any

23

citizen of their choosing. The Tenth Circuit has squarely addressed the issues at bar which is

24

persuasive but not binding on other Courts outside the 10th Circuit, thus resolving the issues
25
26

now would save potentially massive amounts of litigation. Further, the question presented as to

27

whether or not a Hazel-Atlas fraud on the court claim waives the gate keeping requirements of

28

the AEDPA has not been addressed by the Third Circuit as Judge Padova states in his 2019

- 14-

1
2

opinion denying relief on a true Rule 60(d)(3) motion. (See Appendice-D @ Pg. 2) Foa
continues:

3
4
5
6
7
8
9
10
11
12
13
14
15
16
17

"On November 1,1994, in civil proceedings in Virginia Beach,
Virginia, initiated by Resource Bank, Sidney Freidler, Esq.,
entered his appearance on behalf of Edward Zinner and his wife,
Cindy Zinner. Resource Bank v Zinner, Circuit Court of Virginia
Beach, Law No. CL94-978. See Exhibit-A attached. That action
concerns certain financial transactions, including the purchase by
Atlantic Healthcare Benefit, between the Zinner's and Resource
Bank, which were also part of the grand jury's investigation are
expected to be presented as part of the Government's case at trial.
On January 13,1995, the United States moved, ex parte, to
restrain pre-indictment certain of Defendant Zinner's real
property.” (They also moved to restrain Waldron's real property)
On January 18,1995, and for several days afterwards, Mr.
Freidler was present during joint plea negotiations with Zinner,
Waldron and the government. Mr. Zinner entered into a
cooperation plea agreement with the government and is expected
to be a witness against Mr. Waldron at the trial of this matter.
Wherefore the United States respectfully requests the court to
disqualify Sidney Freidler from representing Mark Waldron in
this case.”
In light of these now irrefutable facts before the Court, and Foa's representations as to the
Court's discussions in the 1994 hearings before Judge Padova, a jurist of reason could only

18

conclude (1) that Pamela Foa and every United States Attorney or AUSA whose name appears
19
20

on Foa's motion was TOLD of separate representation of each client in December 1994, after

21

"joint" representation proved by FOA's own statements in her disqualification motion; (2) that all

22

counsel KNEW of an actual and unwaivable conflict of interest that applies equally to BOTH

23

defense counsel for the same reasons; (3) that "joint" plea negotiations referenced on "January

24

18, 1995 and for several days afterwards" as represented by FOA were known by all counsel to
25
26

be in conflict with the diverging legal interests of Petitioner and Waldron based upon the pre-

27

indictment plea agreements proposed; and (4) both guilty pleas were coerced by the conflicted

28

counsel through deception of both clients as Judge Padova was told in 1997 in open court and in

-15-

1
2

multiple habeas pleadings. This demonstrates a clear conspiracy to deprive the defendants of
conflict free lawyers during a "critical stage of the proceeding" because the Government KNEW

3

of the conflicts in December 1994 as FOA represents in her March 1995 motion. However, the
4
5

Government AND defense counsel acting in concert with one another chose NOT to disclose the

6

conflicts to the defendants on January 18, 1995, during the phony staged "joint" plea negotiations

7

that were not in reality plea negotiations at all, but an attempt to execute a criminal scheme to

8

extract guilty pleas to crimes that did not exist in fact or at law. The sham defense lawyers were

9

assisting the Government in carrying out objectives of Foa’s conspiracy to deprive Petitioner of
10
11

Constitutional rights under color of law. To accomplish this criminal scheme, Petitioner was

12

threatened with indictments against his wife and mother unless he agreed to plead guilty

13

immediately and that is the only reason Petitioner pled guilty, not because of guilt or criminal

14

wrongdoing just as Petitioner told Judge Padova during Rule 60(b) hearings. Foa and Mezzaroba

15

falsely testified at the Rule 60 evidentiary hearings that there were no threats made. This was to
16
17

sanitize the skullduggery they all knew took place in January 1995. See Manholt v Reed, 847

18

F.2d 576, 582(1991 U.S. App. LEXIS 13}(9th Cir.)("Exploring plea negotiations is an important

19

part of providing adequate representation of a criminal client, and this part is easily precluded by

20

a conflict of interest,"), cert.denied 488 U.S. 908,102 L. Ed. 2d 249, 109 S. Ct. 269 (1988); See

21

also United States v Swartz, 975 F.2d 1042 (4th Cir. 1992)(co-defendants were represented by
22
23

same counsel...and Swartz being asked to testify at the sentencing of her co-defendant was found

24

actual conflict of interest requiring vacating Swartz sentence); Here, Waldron was "required" to

25

testify at Zinner's sentencing for the Government and DID SO per his plea agreement. (This

26

alone required Petitioner's sentence to be vacated and Judge Padova certainly knew that); also

27

see United States v Nicholson, 475 F.3d 241, 248 (4th Cir. 2007) (holding that an attorney
28

-16-

1
2

possessed a conflict of interest between two criminal defendants, despite being involved in
different cases). Here, Waldron refused to plead guilty in January 1995, thus Foa's weapon of

3

coercion, i.e., the ’’package" was intended to cause Freidler AND Mezzaroba to get Waldron's
4
5

guilty plea done on March 7,1995, or prior to March 10,1995, in time for the Rule 11 hearing in

6

violation of the law and the Constitutional rights of Petitioner and Waldron. This was done under

7

direction of the Government and constitutes a felony violation of 18 U.S.C. §§241, 242. The

S

pre-drafted plea agreement attached to the disqualification motion was not "negotiated," it was a

9

tool proved by the fact that it contains a signature line for Freidler to sign off as Waldron's
10
11

counsel while Freidler is in possession of Foa's motion to disqualify him which in of itself,

12

establishes a scheme to defraud Waldron and Petitioner, a criminal offense. On March 7, 1995,

13

Freidler and Mezzaroba were on a “joint” mission to extract Waldron’s guilty plea on behalf of

14

Foa and no other reason. The fact that Mezzaroba participated in extracting the plea under these

15

facts and circumstances, provides clear and unequivocal proof of intended fraud on the Court and
16
17

intent to deprive both Petitioner and Waldron of conflict free lawyers. Further, the fact that

18

Waldron's guilty plea was in counsel’s possession on March 6,1995, before they went to meet

19

with Waldron on March 7,1995, proves that BOTH lawyers knew that the interests of their

20

clients and former clients diverged based on the plain language in Petitioner’s January 18,1995,

21

plea agreement and Waldron's March 6, 1995, plea agreement. (According to Foa in her motion
22
23

"package,” Zinner was to be a witness against Waldron at the trial); And, in the face of Foa's

24

motion to disqualify Freidler BEING IN COUNSEL'S POSSESSION, they BOTH still

25

proceeded extracting Waldron's guilty plea while hiding from the Court, the real reason they

26

were there "jointly" committing felonies at the behest of FOA! MONEY! And LOTS OF IT,

27

$210,000 PAID FOR A TRIAL, NOT GUILTY PLEAS! All counsel on both sides violated
28

-17-

1
2

every authority designed to prevent this type of deprivation of Constitutional rights and Judge
Padova has written extensively on this very subject, thus cannot be said not to have known the

3

law or that he was violating it. There are no other inferences that can be drawn from these
4
5

documents, or the facts set forth within them or the relevant facts on this record. In U.S. v Haziz

6

Self, 2009 U.S. Dist. LEXIS 121386, over which Judge Padova and Judge Diamond presided, a

7

very lengthy opinion was authored that sets forth exactly why these facts cannot exist at law and

8

why neither lawyer could legally represent Petitioner OR Waldron. First, the Sixth Amendment

9

requires counsel to avoid conflicts of interest in order to fulfill the duty of loyalty owed to the
10
11

client. Strickland v Washington, 466 U.S. 668,104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984) citing

12

Rule 44(c)"s prophylactic measure designed to ensure that a defendant's Sixth Amendment right

13

to effective assistance of counsel is not impaired by an actual conflict of interest. United States v

14

Pungitore, 910 F.2d 1084,1140 (3rd Cir. 1990), Rule 44 "requires the court to promptly inquire

15

about the propriety ofjoint representation...and personally advise each defendant of the right to
16
17

effective assistance of counsel, including separate representation. Unless there is good cause to

18

believe that no conflict of interest is likely to arise, the court must take appropriate measures to

19

protect each defendant's right to counsel." citing Fed. R. Crim. P. 44(c)(2). In this case, there is

20

no question that all counsel and the JUDGE KNEW of actual conflicts of interest, and, that

21

separate representation after joint representation by the same counsel, violates Rule 44 and all of
22
23

the authorities cited. When conflicted representation is arranged by prosecutors, as here, it

24

constitutes an intentional deprivation of the Sixth Amendment right to a conflict free lawyer and

25

the cover ups are obstructions ofjustice, due process deprivations and fraud on habeas courts

26

intended to cover up fraud on the Criminal Court. Further, any waiver of the 6th Amendment

27

right to conflict free counsel, "must be made knowingly, intelligently and with awareness of the
28

-18-

1
2

likely consequences of the waiver." United States v Dolan, 570 F.2d 1177, 1180-81 (3rd Cir.
1978). Of course, there were no waivers in this case at all, let alone knowing or intelligent

3

waivers. A waiver is made "knowingly" and "intelligently" only if the "defendant" is aware of
4

5

the foreseeable prejudices his attorney's continued representation could entail for his trial, and

6

possible detrimental consequences of those prejudices." Id. at 1181; See also United States v

7

Laura, 667 F.2d 365, 371 (3rd Cir. 1981). The record in this case demonstrates there was no

8

inquiry and no waivers. See U.S. v Miller, 624 F.2d 1198 (Third Circuit affirmed disqualificatior

9

of lawyer....by switching sides). Freidler switched sides after being fired by Petitioner and
10
11

threatened by the Government with disqualification but was permitted to proceed after extracting

12

Waldron's guilty plea for prosecutors, now acting in concert with Foa in the commission of a

13

federal crime. For these reasons, prejudice is presumed. See Weaver v Mass., 582 U.S.__, 137

14

S. Ct. 1899, 198 L. Ed. 2d 420, 2017 U.S. LEXIS 4043, Id at 692, 104 S. Ct. 2052, 80 L. Ed. 2d

15

674, Cronic, 466 U.S. at 658-660,104 S. Ct. 2039, 80 L. Ed. 2d 657. "Where there is...actual or
16
17
18
19
20

constructive denial of counsel, state interference with counsel's assistance, or counsel that labors
under actual conflict of interest. Id. at 692,104 S. Ct. 2052, 80 L. Ed. 2d 657.
Prejudice can be presumed with respect to these errors because they "are so likely to
prejudice the accused that the cost of litigating their effect in a particular case is unjustified." Id.

21

at 658, 104 S. Ct. 2039, 80 L. Ed. 2d 657; See Strickland, supra, at 692, 104 S. Ct. 252, 80 L.
22
23

Ed. 2d 674; Mickens v Taylor, 535 U.S. 162, 175, 122 S. Ct. 1237, 152 L. Ed. 2d 291 (2002). In

24

the instant case, the Government arranged for the conflicted representation of criminal

25

defendants by the same counsel who represented them jointly in the same matter, thus interfered

26

or intruded into the attorney client relationships. There can be no "explanation" as to why Judge

27

Padova protected the Government by engaging in outrageous conduct protecting what is clearly
28

-19-

1
2

fraud on the Court, as demonstrated in his erroneous opinions thereby shielding the corrupt
lawyers from exposure for committing federal offenses while using the AEDPA as a tool to

3

prevent judicial review of the case on its merits which goes far beyond the scope of the
4
5
6

AEDPA’s intended purpose.
REQUIREMENTS FOR WRIT OF ERROR CORAM NOBIS

7

7. Petitioner meets the first requirement because he is not in custody on the conviction at

8

issue; (2) Petitioner has been deprived of his Constitutional right to a lawyer in the criminal trial

9

and this qualifies as a most "fundamental" error for which this Court granted relief in Morgan,
10
11

supra. This Court also held that no showing of prejudice is necessary "if the accused is denied

12

counsel at a critical stage of his trial," United States v Cronic, 466 U.S. 648, 659,104 S. Ct.

13

2029, 80 L. Ed. 2d 657 (1984); Here, Petitioner was denied counsel during the plea negotiation

14

Rule 11 and sentencing stages as demonstrated above. The Cronic Court further held: Similarly,

15

prejudice is presumed "if counsel fails to subject the prosecution’s case to meaningful
16
17

adversarial testing." Cronic, 466 U.S. at 659, 104 S. Ct. 2039, 80 L. Ed. 2d 657. Here, Petitioner

18

stopped the Rule 11 hearing three times when Foa was lying to the Court regarding the phony

19

and fabricated factual basis for the RICO violation only to be lied to privately by Mezzaroba

20

while standing before a federal judge. Mezzaroba "advised" Petitioner that all the conduct Foa

21

was lying to the Court about creating a phony factual basis for the RICO violation was
22
23

dismissed per the plea agreement and "harmless" when in fact, nothing could have been further

24

from the truth. Had a real lawyer been representing Petitioner, there would have been objections

25

to the outright false factual basis for the charge resulting in the Court refusing to accept the

26

guilty pleas, but that was not happening on Foa's watch. Foa owned Mezzaroba and Freidler as

27

testimony and the record shows. Foa’s lies included loss that did not exist, violations ofjudicial
28

-20-

1
2

orders that never occurred, lying to plan members which never occurred, all of which the
Government's own evidence proves never occurred, and most disgusting, stealing One Million

3

Dollars from the healthcare plans PROVED NOT to have happened in post-conviction tax
4
5
6
7
8

litigation which in of itself, calls the conviction into question.
The Tax case was wholly predicated upon the Government lying to the IRS postconviction in direct violation of the plea agreement, falsely claiming that Petitioner "used for
personal benefit" the amount of One Million Dollars and based upon the guilty plea, (this was to

9

punish Petitioner for the § 2255 motion), the IRS issued tax deficiency notices and sought
10
11

$900,000 in taxes and penalties. Petitioner sued the IRS in the United States Tax Court and by

12

mid 2000, Petitioner won the case. The IRS stipulated that Petitioner owed NOTHING despite

13

the erroneous indictment and guilty plea because the BANK RECORDS and the PLAN'S

14

records told the TRUTH. NOT the government or its corrupt lawyers. The errors of fact and law

15

set forth throughout this pleading show that Petitioner has met this requirement by
16
17

demonstrating both; (3) There is no possible remedy at a trial where the defendant has no

18

knowledge of a criminal scheme being perpetrated upon him by prosecutors and his own

19

counsel. This case involves complex factual and legal issues neither of which were understood

20

by Petitioner at the time. Further, criminal prosecutorial misconduct was concealed from the

21

Court by all counsel in the case. So how could a defendant be expected to uncover those acts
22
23

when he knows nothing about the law and his lawyer is lying to him about the law in relation to

24

the facts of the case as well as the options available to him? Petitioner learned what legally

25

happened to him after entering prison and studying the law over years. Petitioner cannot find

26

any existing law even today that would provide an adequate remedy to prevent or expose

27

defense counsel conspiring with prosecutors to convict their own clients by guilty plea knowing
28

-21 -

1
2

they were not guilty. Even if some legal relief were available at that time, defense counsel was
acting in concert with prosecutors against the interest of his client/Petitioner leaving him with

3

no options. All of this is in violation of 18 U.S.C. §§§241,242,1622. Petitioner has sought
4
5

remedy in this case on at least 10 different occasions since 1996 and over the years continuing

6

to try and expose this outrageous fraud in state and federal courts to no avail due to the ADEPA

7

and Heck v Humphrey, 512 U.S. 477, 486-487,114 S. Ct. 2364,129 L. Ed. 2d 383 (1994) with

8

exception, the IRS matter discussed above. These include fighting related tax matters, post-

9

conviction matters, unlawful related tax liens that continue to be filed as of 2014, unjust seizure
10
11

of money under color of law (2015) the pretense of which is unpaid restitution that does not

12

exist, new criminal prosecutions based on Foa's relentless pursuit to silence Petitioner forever

13

regarding this matter for reasons set forth herein; (It is not surprising Foa chose the IRS to

14

attack yet again); (4) Petitioner is still suffering consequences of this case due to a significantly

15

enhanced sentence related to Foa's most recent handy work (2018) where this case was cited by
16
17

the court as reason for an upward departure in another prosecution for a non-existent crime,

18

initiated by Foa, for reasons set forth herein, and (5) Petitioner did NOT wait to seek relief for

19

any substantial period of time. He began filing habeas pleadings in 1996 and has continued

20

doing so through 2021 including this Petition. As the Virginia Federal Court noted at the 2018

21

sentencing, Petitioner has been fighting the 1995 case for over 20 years and the Court took
22
23

offense to that fact because it does not know the information that is now before this Court or

24

that the conviction is and was at all times relevant predicated upon a fraud on the Court as

25

shown herein which constitutes a deprivation of the most basic fundamental Constitutional

26

rights. Judge Padova has aided and abetted prosecutors in violation of 18 U.S.C. § 2 which is a

27

federal crime for which he should answer to this Court and be impeached and disbarred.
28

-22-

1
2

As a result, Petitioner again suffers consequences of an enhanced sentence imposed for
yet another nonexistent crime thus this constitutes ongoing consequences. The outcome of this

3

case will have significant impact on the Virginia matter now pending before that court. While
4
5

the fraud on the Court in this case is serious and involves many federal offenses by the Court's

6

officers, it is noteworthy that it is the tax dollars of the public that paid for the unlawful

7

proceeding and incarceration. It is the employees that lost their jobs and the fallout of all that

8

which caused significant harm not to mention that there was NEVER ONCE, a SINGLE unpaid

9

claim while Petitioner ran the ERISA plans in the 1990’s. There were only inchoate claims
10
11

when the Government seized the plan and there was more than enough money to pay them all.

12

The same is true in the Virginia matter which was brought to protect this unlawful conviction

13

and to exact revenge for Petitioner defeating the IRS in the related tax case demonstrating to

14

other courts that this case is unjust and was procured by fraud on the Court as demonstrated

15

here. It is the IRS that brought the new prosecution, and the investigation began immediately
16
17

upon the Government being notified by FOA that Petitioner had another successful business.

18

For these reasons, this case is of significant importance to Petitioner and the public as their tax

19

dollars have paid for FOA’s initiation of the Virginia prosecution as well, proven by depositions

20

given by her cohorts in the state matter Petitioner was prosecuting. The state matter is the

21

reason Petitioner was arrested and held without bond based upon lies and deception of the
22
23

Virginia Court, i.e., nearly all of the Government's witnesses were defendants in the state case

24

which was a statutory business conspiracy lawsuit. The case was dismissed because Petitioner

25

was unable to prosecute it from jail. Another atrocity related to this case and FOA was a listed

26

defense witness in the state matter. For what reason is beyond even the wildest of imagination.

27
28

-23-

1
2

REASONS FOR GRANTING THE WRIT
There are good reasons for granting this Petition in addition to the facts demonstrated in

3

that the concerted actions of the Court's officers in the case constitute felony violations of 18
4
5
6
7
8
9
10
11
12
13
14
15

U.S.C. §§ 241, 242. This Court held in Imbler v Pachtman, 424 U.S. 409, 421, 96 S. Ct. 984, 47
L. Ed. 2d 128 (1976):
"We emphasize that the immunity of prosecutors in suits under §
1983 does not leave the public powerless to deter misconduct or to
punish that which occurs. This Court has never suggested that the
policy considerations which compel civil immunity for certain
governmental officials also place them beyond the reach of the
criminal law. Even judges, cloaked with immunity for centuries,
could be punished criminally for willful deprivations of
constitutional rights on the strength of 18 U.S.C. s 242 [18 USCS §
242], the criminal analog of {*pg. 143 § 1983. O'Shea v Littleton,
414 U.S. 488, 503, 38 L. Ed. 2d 674, 94 S. Ct. 669 (1974); cf. Gravel
v United States, 408 U.S. 606, 627, 33 L. Ed. 2d 583, 92 S. Ct. 2614
(1972). The prosecutor would fare no better for his willful acts." Id.
Petitioner has not found a single case where a federal prosecutor has been held

16

accountable pursuant to the above law or this Court's holding. It appears that 18 U.S.C. §§ 241,

17

242 are symbolic in text, but ignored in practice. Moreover, there is no available remedy at law

18

for Petitioner or any citizen when this type of corruption befalls upon him or her because the
19
20

Court itself becomes the catalyst to inflict the injury and it is its officers that corrupt and

21

obstruct the judicial process itself, destroying the Court's machinery that exists for the

22

protection of litigants that come before it, especially criminal defendants. For that reason,

23

among others, this case is of national importance because unless these individuals and those of

24

the like are stopped and held accountable under the law, then no deterrence factor exists to
25
26

prevent more atrocities of this nature, but equally critical, the integrity of the entire justice

27

system is called into question. Without intending to be disrespectful, the Padova Court here is

28

the equivalent of a third world kangaroo court. As such, this Court's Supervisory Power should

-24-

1
2

be invoked to dismiss the indictment with prejudice for the 6th Amendment deprivation as this
Court did in United States v Morgan, 346 U.S. 502, 74 S. Ct. 247, 98 L. Ed 248 (1954); and for

3

the corruption of the Court by its officers and deprivation of due process guaranteed all citizens
4
5
6

by the 5th & 14th Amendments.
8. This Court should establish legal binding precedent with respect to the questions

7

presented, but further and equally important to every citizen in America, it can set a precedent

8

that requires federal courts to review the full merits of all cases involving fraud on habeas courts

9

without regard to the AEDPA and, to require federal prosecutors and other officers of the Court,
10
11

found to have committed fraud on the court intended to intentionally deprive a citizen of

12

Constitutional rights, resulting in unlawful incarceration and/or financial destruction, be held

13

accountable and prosecuted thereby demonstrating that no person is impervious to the law, that

14

18 U.S.C. §§241, 242 are not merely symbolic and that federal prosecutors may NOT commit

15

crimes to deprive citizens of Constitutional rights absent serious consequences.
16
17

9. Neither The Third Circuit nor the District Court have reached the merits of the instant

18

Petition for writ of error coram nobis, instead, summarily denying the Petition and the Court of

19

Appeals affirming and denying a COA. However, in doing so, the Court has affirmed a judge's

20

participation in fraud on the District Court in habeas proceedings by ignoring the conflicts of

21

interest, Foa's "package," the 6th Amendment rights of Petitioner and Waldron, the clear
22
23

violation of Petitioner's right to due process and all of that in conflict with this Court's holdings

24

in Gonzalez v Crosby, supra, the Constitution and the Tenth Circuit's holdings in In re Pickard

25

discussed infra. Judge Padova has gone to great lengths to avoid reaching the merits of this

26

matter and to prevent any other Court from reaching the merits as described herein and proven

27

by the Court of Appeals' summary denials. Judge Padova misrepresented the Court's Docket
28

-25-

1
2

record in his 2019 opinion to hide the fact that Petitioner filed the above referenced motions in
1999 upon discovery of Foa's "package" which was "newly discovered" evidence then, not

3

2019. Notably, AUSA Ashenfelter too misrepresented the record in the Government’s response
4
5

to the Rule 60(d)(3) Petition claiming falsely that "there may have been other motions filed

6

beyond 1998, but the Government is not in possession of those records." However, the Court's

7

Docket record proves otherwise. See Docket sheet at Appendice F, Docket #'s 223, 224, 226,

8

236, 249, 250, 251. 252, 256, 257. AUSA Ashenfelter lied in his response to avoid answering

9

the pleadings with regard to Foa's "package." This is because the "package" was "newly
10
11

discovered" when it was filed in 1999 with a subsequent Rule 60(b) motion for fraud on the first

12

habeas courts. That FACT had to be kept out of the Rule 60(d)(3) proceeding for obvious

13

reasons, as well as the contents of the "package" to continue the cover up. Therefore, Judge

14

Padova referenced the "package" as new evidence to mislead any reader of his opinion that the

15

Rule 60(d)(3) claim was predicated upon new evidence thus making it a § 2255 claim when in
16
17

fact, the claim was and still is a fraud on the Court claim subject to review on its merits pursuant

18

to this Court's holdings in Gonzalez supra. The fraud includes but is not limited to the fraud on

19

the Court during the "full evidentiary hearing" held in 1997 where the scheme to suborn perjury

20

was executed by prosecutors and defense counsel while the "package" was concealed thereby

21

hiding the known conflicts that were falsely denied to exist by all counsel; and, the "package" is
22
23

clear and unequivocal proof of the conflicts and the cover up as shown herein which involves

24

the participation of a federal judge. These truths destroy the Government's phony denials and

25

prove inter alia Mezzaroba's false testimony, Weber suborning that Perjury and Judge Padova

26

suborning perjury in his 1998 opinion. Further, a motion for a new trial was filed with the 1999

27

Rule 60 motion as well as a motion to Appoint Special Counsel to Investigate fraud on the
28

-26-

1
2

Court. ALL motions were DENIED IMMEDIATELY by Judge Padova ABSENT consideration
or even an acknowledgment of the new evidence, i.e., Foa's "package." This was clearly done in

3

1999 to cover up the collusion exposed by Foa's disqualification/plea agreement "package" and
4
5

its contents which prove the concealed conflicts of interest; collusion between prosecutors and

6

defense counsel; the timelines as alleged in pleadings where the unlawfully coerced guilty pleas

7

were extracted despite all counsel's knowledge of the conflicts, but also FOA'S "PACKAGE"

8

having been CONCEALED in the face of the perjury and suborning perjury scheme, never

9

mind the Rule 11 and sentencing hearings. All of that aside, The Third Circuit has not made a
10
11

definitive ruling as to whether or not a subsequent habeas petition brought under Hazel-Atlas

12

supra, alleging fraud on a prior habeas court to cover up fraud on the Criminal Court waives the

13

gate-keeping requirements of the AEDPA. (See J.P. Opinion, July 24, 2019 @ Pg. 2, Appendice

14

B). However, the Tenth Circuit extensively addressed this issue discussing Gonzalez supra in

15

great detail. In In re Pickard, 661 F.3d 1201,1215-16 (10th Cir. 2006) the Court held the
16
17

18
19
20
21
22
23
24
25
26
27
28

following which it is respectfully submitted, should apply here:
"More problematic, however, is the later dictum in Spitznas.
Although the case before the panel involved no claim of fraud or
deceit of any kind, the opinion stated that if the fraud alleged in a
Rule 60(b) motion "includes (or necessarily implies) related fraud on
the state court (or the federal district court that convicted or sentenced
the movant in the case of a § 2255 motion), then the motion will
ordinarily be considered a second or successive petition because any
ruling would inextricably challenge the underlying conviction
proceeding." 464 F.3d at 1216. “One could read this statement as
requiring us to treat Defendant's claim of fraud in the § 2255
proceedings as a second or successive claim because the alleged
fraud that obstructed discovery in the § 2255 proceedings paralleled
the misconduct that allegedly occurred at trial. {681 F.3d 1207} We
will. not, however, follow that dictum so interpreted. We cannot
accept the proposition that the government has a free pass to deceive
a habeas court into denying discovery just because it similarly
deceived the trial court. If the Defendants' claim of prosecutorial
deceit during the § 2255 proceedings must be treated {2012 U.S. App.

-27-

1
2

LEXIS 15}as a second-or-successive § 2255 motion, then the
government's alleged misconduct during that proceeding could
compound a substantial injustice to the Defendants”.

3

This is exactly what happened here. The government deceived the § 2255 Court into believing
4
5

that no conflicts of interest existed. The lawyers suborned perjury as to those facts while

6

concealing key evidence, i.e., Foa's "package" and the truth from the Court and its records. The

7

government deceived the Rule 60(b) court into the same belief with assistance of defense

8

counsel and the judge. To continue fraud on the first habeas (§ 2255) Court, prosecutors, and

9

defense counsel conspired with one another to hide the felony deprivations of Petitioner's
10
11

Constitutional rights in the Criminal trial, then deceived the Rule 60 Courts through a scheme to

12

suborn peijury of one another while concealing key evidence, thereby, compounding a

13

substantial injustice already inflicted upon the Petitioner and Waldron by the Criminal and

14

habeas Courts. For these same reasons, the Pickard Court remanded the case to the District

15

Court to "consider in the first instance Defendant's claim that the prosecutor's false statement
16
17

improperly prevented them from obtaining relevant discovery in the § 2255 proceedings." Id.

18

The fraud here goes far beyond discovery violations or simply lying to the Court as

19

demonstrated above. If in fact, the Government OR defense counsel would have disclosed Foa's

20

secreted "package" to the Rule 11, sentencing, § 2255, Rule 60(b), 2nd Rule 60(b) third Rule

21

60(d)(3) OR coram nobis Courts and truthfully disclosed the concerted actions described herein,
22
23

the Rule 11 Court would have disqualified counsel for conflicts of interest and the conviction

24

would not exist. If the government or defense counsel disclosed Foa's "package" or the conflicts

25

to the § 2255 Court, the conviction would have been vacated and a new trial would have proved

26

Petitioner innocent. If the government or defense counsel disclosed the "package" or the

27

conflicts to any of the Rule 60 Courts, the District Court could not have issued the erroneous
28

-28-

1
2

opinions that now exist all of which were by design, to shut down any attempt by Petitioner to
gain access to any Court for the purpose of exposing this outright corruption. In an effort of last

3

resort, the writ of coram nobis appeared to be the proper procedural mechanism by which
4
5

Petitioner's claims should have been reviewed on the merits, but again, summary denials by

6

both the District and Appeals Courts. How can any of this stand when the law is well settled

7

that criminal defendants have a 6th Amendment right under the United States Constitution to be

8

represented by a conflict free lawyer in a criminal trial? See U.S. v Wheat, 813 F.2d 1399 (9th

9

Cir. 1986)(The U.S. const, amend. VI guarantees each criminal defendant the right to assistance
10
11

of counsel unhinged by a conflict of interest); Also see Chester v Comm'r of Pa. Dept, of Corr,

12

598 Fed. Appx. 94, Jan 13, 2015, (citing 6th Amendment right to conflict free counsel); Cuyler

13

v Sullivan, 466 U.S. 335, 349-50,100 S. Ct. 1708, 64 L. Ed. 2d 333 (1980)(defendant who

14

shows that conflict of interest actually affected adequacy of his representation need not

15

demonstrate prejudice in order to obtain relief). It is impossible that Judge Padova is unaware of
16
17

any of these authorities, yet Petitioner continues to suffer from unconscionable schemes as

18

demonstrated above, which deprived him of a conflict free lawyer in a criminal trial. How can

19

the conflicts be ignored when it is further well settled that even when a potential conflict arises,

20

the government must alert the Court at once? See Rules of Professional Conduct, Rule

21

1.7(a)(b)(where the government has reason to believe the defense attorney has a direct conflict
22
23

of interest, the government must alert the court) citing United States v Levy, 25 F.3d 146, 152

24

(2nd Cir. 1994)); see Holloway v Arkansas, 435 U.S. 475, 98 S. Ct. 1173, 55 L. Ed. 2d 426

25

(1978) (holding that defense attorneys have an obligation upon discovering a conflict of interest

26

to advise the court at once of the problem); "When a possible conflict has been completely

27

ignored, reversal is automatic." 7 Cuyler, 446 U.S. at 347; {25 F.3d 154} 100 S. Ct. 1717-18;
28

-29-

1
2

Holloway, 435 U.S. at 488. The automatic reversal rule applies when a district court has failed
to fulfill its initial inquiry obligation. See Strouse, 928 F.2d at 555. In this case, there was NO

3

INQUIRY by design! BOTH prosecutors and defense counsel concealed known conflicts from
4
5

the RECORD, but Judge Padova knew about the conflicts and failed to inquire. ALL counsel

6

participated in committing felonies to continue the prosecution as shown absent inquiry. ALL

7

counsel continued to conceal the conflicts and Foa's "package" lying to habeas courts to cover

8

up their fraud on the Criminal Court which has caused 25 plus years of devastation to

9

Petitioner's personal and financial life still ongoing as of this writing. The Government stated
10
11

clearly in its concealed Memorandum of Law in support of its Disqualification motion/Plea

12

Agreement "package," that Third Circuit precedent forbid the representation based on the facts

13

presented in the Motion including that the conflicts were "unwaivable" citing U.S. v Moscony,

14

697 F. Supp. 888 (E.D.PA. 1988(Reed, J.)) cf U.S. v Dolan, 570 F.2d 1177,1184 (3rd Cir.

15

1978); also U.S. v Provenzano, 620 F.2d 985, 1005 (3rd Cir. 1980).
16
17

Petitioner agrees with THE GOVERNMENT'S FACTS HERE, but it is ONLY the

18

Government that concealed its true position with respect to these known conflicts; and, it is in

19

fact the Government who lured the defense lawyers into the scheme of unlawfully extracting

20

guilty pleas from their clients and former clients, then covered that up lying in documents and

21

pleadings, then lying by omission to Courts, committing and suborning perjury during Rule
22
23

60(b) evidentiary hearings thereby depriving Petitioner and Waldron of not only conflict free

24

lawyers, but deprived both of due process of law in habeas proceedings time and time again

25

ALL under color of law. See Imbler v Pachtman, 424 U.S. 409, 47 L. Ed. 2d 128:

26
27
28

"A prosecutor who, while acting within the scope of his duties in
initiating and prosecuting a case, willfully deprives the accused of
his constitutional rights is subject to criminal punishment under 18
U.S.C. 242, which makes it a crime for a person, acting under color

-30-

1
2

of law, to deprive another person of any right protected by the
constitution or laws of the United States, and is subject to
professional discipline or disbarment." Id

3

In light of this Court's holding above, it is respectfully requested that this Court invoke its
4
5

Supervisory Power to vindicate these egregious deprivations of Petitioner's Constitutional rights

6

in the interests ofjustice and to correct a horrific miscarriage of justice that has plagued

7

Petitioner for more than 25 years and to bring those responsible before a Court to face justice

8

for their criminal acts.

9

THE PETITION FOR WRIT OF ERROR CORAM NOBIS
10
11

10. Prosecutors answering Petitions for writ of error coram nobis are all quick to cite this

12

Court's non-binding foot note in United States v Smith, 331 U.S. at 45, n. 4, 91 L. Ed. 1610, 67

13

S. Ct. 1330 (1947) where the Court stated:

14
15

"After the enactment of the Federal Rules of Criminal Procedure, it
is difficult to conceive of a situation in a federal case today where [a
writ of error coram nobis] would be necessary or appropriate." Id.

16
17
18
19
20
21
22
23

However, since 1947, as the Third Circuit noted in Ragbir v United States, 950 F.3d 54
(3rd Cir. 2019):
"The writ of error coram nobis was moribund-at least in the federal
courts until the Supreme Court revived and refashioned it in 1954."
citing United States v Morgan, 346 U.S. 502, 74 S. Ct. 247, 98 L.
Ed. 248(1954)." Id.
In Morgan, the Court held that (1) Rule 60(b) did not abolish coram nobis in criminal
contexts, (2) Rule 35 did{2020 U.S. App. LEXIS 12} not render the writ unnecessary, and (3)

24

section § 2255 did not replace coram nobis. Id. at 505 n.4, 505-06, 510-11. Instead, the Supreme
25
26

Court stated that the continuing vitality of coram nobis was grounded in the All Writs Act of

27

1789. Id. at 506. The Court also broadened the scope of coram nobis relief beyond that of curing

28

factual errors: the writ's function was to correct errors of the most "fundamental character." Id.

-31 -

1
2

at 511-12. Coram nobis became a {950 F.3d 62} collateral remedy to correct fundamental
errors, whether factual or legal. However, the writ is still limited to "’extraordinary cases

3

presenting circumstances compelling its use to 'achieve justice.”' United States v Denedo, 556
4
5

U.S. 904, 910-11,129 S. Ct. 2213, 173 L. Ed. 2d 1235 (2009)(quoting Morgan, 346 U.S. at

6

510). It provides a means to challenge a federal conviction where a party is no longer in custody

7

for purposes of § 2255 faces continuing consequences{2020 U.S. App. LEXIS 13} as a result of

8

being convicted. Rhines, 640 F.3d at 71; United States v Baptiste, 223 F.3d 188, 189 (3rd Cir.

9

2000); Chaidez, 568 U.S. at 345 n.l; United States v Stoneman, 870 F.2d 102,105-06 (3rd Cir.
10
11

1989). In Denedo supra., this Court stated that "any rationale confining the writ of coram nobis

12

to technical errors has been suspended, for in its modem iteration coram nobis is broader than

13

its common law predecessor." citing Morgan where this Court stated that "a writ of coram nobis

14

can issue to redress a fundamental error, there a deprivation of counsel in violation of the Sixth

15

Amendment as opposed to mere technical errors." 346 U.S. at 513, 74 S. Ct. 247, 98 L. Ed 248.
16
17

The potential universe of cases that range from technical errors to fundamental ones perhaps

18

illustrates, in the case of coram nobis, the tendency of a principle to expand itself to the limit of

19

its logic. B. Cardozo, the Nature of the Judicial Process 51, (1921). In the instant case, as in

20

Morgan, Petitioner was deprived of his 6th Amendment right to a lawyer as shown herein and in

21

the Petition for writ of error coram nobis.
22
23

Further, "The demands of the Constitution, as envisaged by this Court, have moved

24

federal and state courts to acknowledge that due process requires a corrective judicial process in

25

the nature of coram nobis be available to expunge a void judgment when all other avenues of

26

judicial relief are unavailable." See Picket v Legerwood, (US) Pet 144,147, 8 L. ed 638, 639;

27

Davis v Packard (US) 8 Pet 312, 8 L. ed 957. The criminal judgment in this case was procured
28

-32-

1
2

by fraud on the criminal court covered up by fraud on the habeas courts, perpetrated on the
court itself by all counsel in the case and the judge, the court having been deceived by perjury,

3

suborning of perjury by its officers, concealing of key evidence by its officers, thereby
4
5

depriving Petitioner of a lawyer in a criminal trial and further depriving him of relief even when

6

clear proof was put before the habeas Courts. This case is the "extraordinary” case where this

7

Court's Supervisory Power should be invoked to do justice by writ of coram nobis and or by its

8

own Supervisory Power being invoked to reverse and expunge the conviction for good cause

9

having been shown.
10
11

11. As to the second question presented, it is respectfully submitted that when federal

12

prosecutors fail to admit or deny allegations of fraud on the Court, conflicts of interest or

13

prosecutorial misconduct in a habeas pleading as required by Rule 8, F.R.Civ.P., that the

14

allegations against them be admitted as in any other civil litigation. Especially, when the habeas

15

pleading is pursuant to Rule 60(d)(3) which is an "independent civil action" standing on its own
16
17

like any other civil litigation. In this case, the government failed to admit or deny the

18

substantive issues in the pleadings instead simply regurgitating the District Court's erroneous

19

conclusions without answering the relevant allegations and this was done with nefarious intent.

20

The government and the Court side stepped the facts relevant to issues raised clearly to protect

21

the conviction and to avoid addressing the facts of the case to protect the fraud on the Court and
22
23

prevent its exposure. This in of itself is disgraceful and it is a sad day for all Americans that this

24

pleading is being written to this Court. There is no polite way to state these facts and as a citizen

25

who believes strongly in our system ofjustice, even though twice ensnared by its corrupt faction

26

operating within it, this writer does not believe the entire system is corrupt. Petitioner

27

acknowledges that most AUSAs prosecute cases fairly and lawfully every day. Any person with
28

-33-

1
2

any sense of common decency that has spent time in a federal prison can certainly attest to why
as a society, we need prisons. But we also need a fundamentally fair system ofjustice and there

3

are far too many cases where this type of outright corruption and criminal conduct of federal
4
5

actors, obliterate the Constitutional rights of citizens like it doesn't matter. This case is not an

6

isolated incident nor does its reach end with this case. It is with hope, sincerity and a strong

7

belief in American Jurisprudence that the injustices shown, will be rectified by this Honorable

8

Supreme Court and those responsible brought to face justice for their unlawful concerted acts.

9

This case involves matters of corruption and serious judicial misconduct as well as that of the
10
11

Justice Department's employees masquerading as do-good crime fighters. This must never

12

happen again to any American. This case is not just about Petitioner or Mark Waldron, but the

13

questions presented will provide justice for America and preserve the integrity of the entire

14

judicial system and its machinery that was by design, to prevent these types of injustices from

15

ever occurring.
16
17

Finally, Petitioner asks this Court to take judicial notice of the Federal Case pending

18

before the Virginia Federal Court pursuant to Rule 201. The facts are judicially noticeable and

19

fraud in that case mirrors the fraud here. The sentence imposed is nearly double what it would

20

have been absent the record in this case which contains false information as demonstrated in

21

those pleadings in evidence attached thereto. The pending § 2255 case and related Motions can
22
23

be seen on Pacer, Zinner v United States, Civil No. 4:19-cv-32. Armed with the information and

24

facts set forth herein, the Court will more fully understand how the cases are connected and part

25

of the ongoing vendetta the Government has against Petitioner for seeking justice. Petitioner

26

hereby pleads with the Court to do justice using its Supervisory Power to vindicate the

27

Constitutional violations demonstrated for the reasons stated.
28

-34-

1
2
3
4
5
6
7
8

CONCLUSION

9

For the foregoing reasons, good cause having been shown, Petitioner respectfully requests
10
11
12

the Court GRANT the Writ of Certiorari.
Respectfully submitted,

13
14
15

16
17
18

Edward Zinner, pro se
Reg# 48591-066
FPC Loretto
PO BOX 1000
Cresson, PA 16630

19
20

T

21
22
23
24
25
26
27
28

-35-

